No. 19-435
INTHE

$,Upreme <!Court of tbe Wntteb $)tates
SIH PARTNERS LLLP, EXPLORER CORPORATION,
TAX MATTERS PARTNER,

Petitioner,
V.

COMMISSIONER OF INTERNAL REVENUE,

Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 17th day of December, 2019, I caused three copies of the Reply Brief for
Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondent:
Noel J. Francisco

SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@usdoj.gov

